                                                OFFICE OF INSPECTOR GENERAL
                                                           Washington, D.C. 20554




                                    January 26, 2010

Rebecca Anne Batts
Inspector General
Office of Inspector General
Pension Benefit Guaranty Corporation
1200K Street, NW
Washington, DC 20005-4026

Subject:	       System Review Report on the Pension Benefit Guaranty Corporation
                Office of Inspector General Audit Organization

Dear Ms. Batts:

Attached is the final System Review Report of the Pension Benefit Guaranty Corporation
Office of Inspector General audit organization conducted in accordance with Government
Auditing Standards and Council of the Inspectors General on Integrity and Efficiency
guidelines. Your response to the draft report is included as Enclosme 2.

We thank you and all of yom staff that we dealt with for yom assistance and cooperation
dming the conduct of the review

If you have any questions, please contact Thomas C. Cline, Assistant Inspector General
for Policy and Planning, at 202-418-7890 or at thomas.cline@fcc.gov.




David!jLn
tf"{n g     sp ior   <2+eral
~chment:	       /11\../
                                                          OFFICE OF INSPECTOR GENERAL
                                                              Washington, D.C. 20554




January 26, 2010

                                      System Review Report

TO:	   Rebecca Anne Batts, Inspector General
       Pension Benefit Guaranty Corporation


We have reviewed the system of quality control for the audit organization of the Pension Benefit
Guaranty Corporation Office ofInspector General (PBGC OIG) in effect for the year ended
September 30,2009. A system of quality control encompasses the organizational structure of an
Office of Inspector General and the policies adopted and procedures established to provide it
with reasonable assurance of conforming with Government Auditing Standards. The elements of
quality control are described in Government Auditing Standards. PBGC OIG is responsible for
designing a system of quality control and complying with it to provide PBGC OIG with
reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Our responsibility is to express an opinion on the design of the
system of quality control and PBGC OIG's compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE).
During our review, we interviewed PBGC OIG personnel and obtained an understanding of the
nature of the PBGC OIG audit organization, and the design of the PBGC OIG's system of
quality control sufficient to assess the risks implicit in its audit function. Based on our
assessments, we selected engagements and administrative files to test for conformity with
professional standards and compliance with the PBGC OIG's system of quality control. The
engagements selected represented a reasonable cross-section of the PBGC OIG's audit
organization, with emphasis on higher-risk engagements. Prior to concluding the review, we
reassessed the adequacy of the scope of the peer review procedures and met with PBGC OIG
management to discuss the results of our review. We believe that the procedures we performed
provide a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality control for
PBGC OIG's audit organization. In addition, we tested compliance with the PBGC OIG's
quality control policies and procedures to the extent we considered appropriate. These tests
covered the application of the PBGC OIG's policies and procedures on selected engagements.
Our review was based on selected tests; therefore, it would not necessarily detect all weaknesses
in the system of quality control or all instances of noncompliance with it.
There are inherent limitations in the effectiveness of any system of quality control, and therefore
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions, or because
the degree of compliance with the policies or procedures may deteriorate.

The engagements that we reviewed are included as Enclosure I to this report and your response
to the draft report is included as Enclosure 2.

In our opinion, the system of quality control for the audit organization of PBGC OIG in effect for
the year ended September 30, 2009, has been suitably designed and complied with to provide
PBGC OIG with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Federal audit organizations can receive a rating of
pass, pass with deficiencies, orfail. PBGC OIG has received a peer review rating ofpass.

As is customary, we have issued a letter dated December 29,2009 that sets forth findings that
were not considered to be of sufficient significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with Government
Auditing Standards, we applied celiain limited procedures in accordance with guidance
established by the CIGIE related PBGC OIG's monitoring of engagements performed by
Independent Public Accountants (IPA) under contract where the IPA served as the principal
auditor. It should be noted that monitoring of engagements performed by IPAs is not an audit
and therefore is not subject to the requirements of Government Auditing Standards. The purpose
of our limited procedures was to determine whether PBGC OIG had controls to ensure IPAs
performed contracted work in accordance with professional standards. However, our objective
was not to express an opinion and accordingly, we do not express an opinion, on PBGC OIG's
monitoring of work performed by IPAs.
                               SCOPE AND METHODOLOGY


Scope and Methodology

We tested compliance with the PBGC OIG audit organization's system of quality control to tIle
extent we considered appropriate. These tests included a review of three of six audit and
attestation reports issued during the period Noven1ber 13, 2008, through September 25, 2009,
a11d semiannual reporting periods ending March 31,2009 and Septenlber 30,2009. We also
reviewed the internal quality C011trol reviews performed by PBGC GIG.

In addition, we reviewed the PBGC OIG's monitoring of engagements performed by TPAs where
the IPA served as the principal auditor dLlring the period November 13,2008, through September
25, 2009. During the period, PBOC OIG contracted for the audit of its agency's Fiscal Year
2008 and 2007 financial statements. PBGC OIG also contracted for certain other engagements
that were to be performed in accordance with Government Auditing Standards.

Reviewed Engagements Performed by PBGC OIG

We reviewed the following audits in testing con1pliance with the PBGC GIG's quality control
policies and procedures:

Report No.            Report Date            Report Title

AUD-2009-5            5/15/2009              Former Director's Involvement in
                                             Contracting for Investment Services

Reviewed Monitoring Files ofPBGC OIG for Contracted Engagements

We reviewed tIle following monitoring files for reports issued by IPAs selected for review of tIle
OIG's monitoring activities:

Report No.            Report Date            Report Title

AUD-2009-1            11/13/2008             Alldit of the PBGC's Fiscal Year
                                             2008 and 2007 Financial Statements

AUD-2009-7            9/25/2009              Zimmerman Associates Verification of
                                             Personnel Qualifications
                             Pension Benefit Guaranty Corporation
                                                            Office of Inspector General
                                             1200 K Street, N.W., Washington, D.C. 20005-4026

                                                                                  January 20,2010

TO:            David L. Hunt, Acting Inspector General
               Office of Inspector General
               Federal Communications Commission
               445 12th Street, S.W.
               Washington, DC 20554

 SUBJECT:      Response to the System Review Report Regarding the Audit Organization of the
               Office of Inspector General for the Pension Benefit Guaranty Corporation

Thank you for the opportunity to respond to your review of the system of quality control for the
audit organization of the Pension Guaranty Benefit Corporation (PBGC) Office of Inspector
General (OIG). Your draft report provided PBGC OIG with the highest possible peer review
rating, a rating of pass. Weare pleased that you determined that our system of quality control
was suitably designed and that our adherence to this system provided reasonable assurance that
the audit organization performed work and reported results in accordance with professional
standards.

I wish to thank you and Thomas Cline, Assistant Inspector General for Policy and Planning,
for your professionalism in conducting our peer review. We appreciate the FCC's thorough and
balanced external peer review.

If you have questions or need additional information, please feel free to contact me at (202) 326­
4030, ext. 3437 or Assistant Inspector General for Audit, Joseph A. Marchowsky, at ext. 3928.


Sincerely,



Rebecca Anne Batts
Inspector General
